1
No. 20-3793
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

JIBRIIL A. HERSI,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
ED SHELDON, Warden, .
Respondent-Appellee.

Oct 16, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: NALBANDIAN, Circuit Judge.

Jibriil A. Hersi, a recently released Ohio prisoner proceeding pro se, appeals a district
court’s judgment denying his habeas corpus petition filed pursuant to 28 U.S.C. § 2254. The court
construes his notice of appeal as an application for a certificate of appealability (“COA”). See
Fed. R. App. P. 22(b). Hersi moves for, among other things, appointed counsel, an interpreter, and
this court’s review of the transcripts. The State has filed responses in opposition.
According to evidence introduced at Hersi’s 2017 trial, Federal Motor Carrier Officer
Richard Bell activated his lights and siren to direct Hersi, who was driving a semi-truck, to pull
over for a safety inspection. Shaking his head “no,” Hersi swerved toward Bell twice and then at
j

State Trooper Phillip Melicant. Bell and state troopers pursued Hersi for seven or eight miles on
two highways before he stopped. State v. Hersi, No. 17CA0021-M, 2018 WL 444267, at *1 (Ohio
Ct. App. Jan. 16, 2018) (decision and journal entry). Accordingly, the jury convicted Hersi of
failure to comply with an order or signal of a police officer, which caused a substantial risk of
serious physical harm, in violation of Ohio Revised Code § 2921.331(B), (C)(5)(a)(ii), and
knowingly attempting to cause physical harm by means of a deadly weapon (felonious assault), in
violation of Ohio Revised Code § 2903.11(A)(2). The trial court sentenced Hersi to a total of three
/
/

No. 20-3793
-2-

years in prison and three years of post-release control. The Ohio Court of Appeals affirmed, Hersi,
2018 WL 444267, and Hersi did not seek leave to appeal to the Ohio Supreme Court.
Hersi applied to reopen his appeal to raise a claim'that appellate counsel lendeied
ineffective assistance by failing to argue on appeal that his due-process rights were violated
because the indictment did not specify which instance of alleged swerving was the basis for the
felonious-assault charge. See Ohio App. R. 26(B). The Ohio Court of Appeals construed the claim
as asser ting that the indictment was defective because it purportedly did not specify whether Hersi
had swerved at Bell or Melicant. State v. Hersi, 17CA0021-M (Ohio Ct. App. May 24, 2018)
(journal entry). Finding that the indictment clearly indicated that Hersi had attempted to harm
Bell, the court concluded that appellate counsel did not render deficient performance by failing to
raise the issue on appeal. The court thus denied Hersi’s Rule 26(B) application, and the Ohio
Supreme Court denied leave to appeal. State v. Hersi, 108 N.E.3d 83 (2018) (table).
In his § 2254 petition, Hersi asserted that appellate counsel rendered ineffective assistance
by failing to argue on appeal that his due-process rights were violated because: (1) the indictment
did not specify which instance of alleged swerving was the basis for the felonious-assault charge,
and (2) his felonious-assault conviction was not supported by sufficient evidence that Hersi caused
.,
. i ,
__ r_ ^~-.i-«•»rpio 1 Unrin
or attempted
10 cause
sowOua jjaysi^ai nami ^ x^xx1 rvr
^x

1 C£UT.t

filed & rCSOOXlSC 111

~

k.

opposition.
A magistrate judge recommended denying Hersi’s claim regarding the indictment on the
merits and his claim regarding the sufficiency of the evidence as procedurally defaulted, Hersi did
not file objections. Nonetheless, the district court reviewed the record de novo before adopting
the magistrate judge’s report and denying Hersi’s § 2254 petition. The court declined to issue a
COA.
An individual seeking a COA is required to make a substantial showing of the denial of a
federal constitutional right. See 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standaid by
demonstrating that jurists of reason could disagree with the district court s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve

No. 20-3793
-3-

encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). In the § 2254
context, a district court cannot grant relief from a merits adjudication of a constitutional claim
unless the state court’s decision “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States or “was
based on an unreasonable determination of the facts.” 28 U.S.C. § 2254(d)(l)-(2). When the
appeal concerns a district court’s procedural ruling, a CO A should issue if the petitionei
demonstrates “that jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Jurists of reason would agree that the state court’s decision regarding appellate counsel’s
failure to challenge the validity of the indictment was not an unreasonable application of Strickland
v. Washington, 466 U.S. 668, 687 (1984). Counsel cannot be deemed ineffective for failing to
raise a meritless argument. See Sutton

Bell, 645 F.3d 752, 755 (6th Cir. 2011).

Jurists of reason would agree that Flersi procedurally defaulted his claim regarding
appellate counsel’s failure to challenge the sufficiency of the evidence supporting the felomousassault conviction. Hersi raised the claim for the first time when he sought to appeal the denial of
his Rule 26(B) application to tne Ohio supreme cuuu. ue^auS^. xx^ xx3vx

------------------------

Ohio Court of Appeals, he did not invoke “one complete round of the State’s established appellate
review process ” as required to fully exhaust his claim. O’Sullivan v. Boerckel, 526 U.S. 838, 845
(1999). He does not appear to have any remaining state remedies. Furthermore, he has not alleged
cause and prejudice to excuse his default or that a fundamental miscarriage of justice would result
from a failure to review his claim. See Sutton v. Carpenter, 745 F.3d 787, 789-90 (6th Cir. 2014).
Next, the court observes that Hersi’s filings on appeal contain references to other alleged
improprieties by counsel and evidentiary issues. The court declines to review any new arguments
no
that Hersi may be attempting to raise because he did not properly raise them below and
exceptional circumstances exist that merit their consideration for the first time on appeal. See
Dealer Comput. Servs., Inc.

Dub Herring Ford, 623 F.3d 348, 357 (6th Cir. 2010).

No..20-3793
-4-

Finally, the

court has not considered any new documents filed by Hersi on appeal, such as

his affidavit, because they were not presented to the district couit

See Adams v. Holland, 330 F.3d

398,406 (6th Cir. 2003).
Accordingly, the

court DENIES Hersi’s CO A application. The court DENIES as moot all

pending motions.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: l:18-cv-02437-SO Doc#: 29 Filed: 06/22/20 1 of 1. PagelD#: 1448

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

JIBRUL A. HERSI, Pro Se,
Petitioner
v.
WARDEN DAVE MAQUIS,
Respondent

)
)
)
)
)
)
)
)
)

Case No.: 1:18 CV 2437
JUDGE SOLOMON OLIVER, JR.

JUDGMENT ENTRY

The court, having dismissed pro se Petitioner Jibriil Hersi’s (“Petitioner”) Petition for Writ
of Habeas Corpus pursuant to 28 U.S.C. § 2254 (“Petition”), (ECF No. 1), in a separate Order on this
same date, hereby enters judgment for Respondent Warden Dave Maquis and against Petitioner. The
court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from this decision could not be
taken in good faith, and that there is no basis upon which to issue a certificate of appealability. 28
U.S.C. § 2253(c); Fed. R. App. P. 22(b)
IT IS SO ORDERED.

/s/SOLOMON OLIVER. JR.
UNITED STATES DISTRICT JUDGE
June 22, 2020

Case: l:18-cv-02437-SO Doc#: 28 Filed: 06/22/20 lof3. PagelD#:1445

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

JH3RIIL A. HERSI, Pro Se,
Petitioner
v.
WARDEN DAVE MAQUIS,
Respondent

)
)
)
)
)
)
)
)
)

Case No.: 1:18 CV 2437
JUDGE SOLOMON OLIVER, JR.

ORDER

Currently pending before the court in the above-captioned case is pro se Petitioner Jibriil
Hersi’s (“Petitioner” or “Hersi”) Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254
(“Petition”). (ECF No. 1.) Under Local Rule 72.2, the court referred the matter to Magistrate Judge
Thomas M. Parker (“Magistrate Judge” or “Judge Parker”) for a Report and Recommendation
(“R & R”). For the following reasons, the court adopts Judge Parker’s R & R that the Petition be
denied in its entirety.
On October 22,2018, Hersi filed the Petition challenging his conviction and sentence in state
court for failing to comply with an order or signal of a police officer and for felonious assault. (See
R & R at PagelD #1424, 1428, ECF No. 27.) As a result of the conviction, Hersi was sentenced to
an aggregate of three (3) years’ imprisonment to be followed by three (3) years of post-release
control. (Id. at PagelD #1424.) The Petition asserts the following grounds for relief:
GROUND ONE:

Hersi was deprived effective assistance of appellate counsel in
violation of the Sixth Amendment to the United States Constitution
when appellate counsel failed to raise[:] “Hersi’s Due Process rights
under the Fourteenth Amendment to the United States Constitution
[were] violated when the indictment failed to specify [which] of the

Case: l:18-cv-02437-SO Doc#: 28 Filed: 06/22/20 2 of 3. PagelD#:1446

two instances of Hersi’s alleged swerving constituted the basis for the
felonious assault charge. [”]
GROUND TWO:

Hersi was [deprived] effective assistance of appellate counsel in
violation of the Sixth Amendment to the United States Constitution
when appellate counsel failed to raise: [“]Hersi’s felonious assault
conviction was obtained in violation of the Due Process clause of the
Fourteenth Amendment to the United States Constitution because the
State of Ohio failed to produce sufficient evidence that Hersi ‘caused
or attempted to cause serious physical harm’ to Trooper Melicant or
Officer Bell.”

(Pet. at PagelD #4-5, ECF No. 1.) On January 10, 2019, Hersi filed a Supplement to the Petition,
which appears to ask the court to investigate the circumstances surrounding a hearing held in state
court about Hersi’s felonious assault charge. (See Suppl., ECF No. 3-1.) Respondent Warden Dave
Maquis (“Respondent”) filed an Answer/Retum of Writ on March 13,2019. (ECF No. 9.) Hersi did
not file a Reply/Traverse, despite receiving an extension of time from Judge Parker.
Judge Parker submitted his R & R on May 26,2020, recommending that the court deny and
dismiss the Petition because Ground One is meritless and Ground Two is procedurally defaulted.
(R & R at PagelD #1422-23, ECF No. 27.) As to Ground One, the R & R concludes that “the Ohio
Court ofAppeals expressly applied the correct standard for ineffective-assistance-of-counsel claims”
and it “reasonably concluded that counsel’s performance was not deficient.” (Id. at PagelD #1437.)
Moreover, Judge Parker points out that “the indictment did specify that Hersi was charged with
feloniously assaulting [Officer] Bell.” (Id. at PagelD #1437.) As for Ground Two, the R & R finds
that Hersi procedurally defaulted the claim because he did not raise it on direct appeal, nor did he
show cause to excuse the default. (Id. at PagelD #1438-39.) Finally, the R & R notes that “Hersi’s
supplemental filing does not raise any claim cognizable on federal habeas review.” (Id. at
PagelD #1441.) Neither party filed objections to the R & R by the June 9, 2020, deadline.
After a careful de novo review of the R & R, the parties’ arguments, and all relevant materials

-2-

Case: l:18-cv-02437-SO Doc#: 28 Filed: 06/22/20 3 of 3. PagelD#:1447

in the record, the court finds that Judge Parker’s recommendations are fully supported by the record
and controlling case law. See Cowherd v. Million, 380 F.3d 909, 912 (6th Cir. 2004). Hersi has not
established that his federal rights were violated. Accordingly, the court adopts Judge Parker’s R & R
in its entirety and hereby denies and dismisses the Petition. The court also certifies that, pursuant to
28 U.S.C. § 1915(a)(3), an appeal from this decision could not be taken in good faith, and that there
is no basis on which to issue a certificate of appealability. Fed. R. App. P. 22(b); 28 U.S.C.
§ 2253(c).
IT IS SO ORDERED.
/s/SOLOMON OLIVER. JR._______
UNITED STATES DISTRICT JUDGE

June 22, 2020

-3-

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 1 of 23. PagelD#:1422

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
JIBRIIL A. HERSI,

)

Case No. l:18-cv-2437

)

Petitioner,

)

JUDGE SOLOMON OLIVER, JR.

)

v.

)
)

DAVE MAQUIS, WARDEN,

MAGISTRATE JUDGE
THOMAS M. PARKER

)
)

Respondent.

)

REPORT AND RECOMMENDATION

)

Jibriil Hersi, a former Ohio prisoner now serving a period of post-release control under
the Ohio Adult Parole Authority’s supervision1, seeks a writ of habeas corpus under 28 U.S.C.
§ 2254. Hersi claims that his convictions and sentences in State v. Hersi, Medina Cty. Ct.
Comm. PI. Case No. 16-CR-0126, violated his constitutional rights. ECF Doc. 1; ECF Doc. 3-1.
Respondent, Warden Dave Marquis2, filed a return of writ on March 13, 2019. ECF Doc. 9.
Hersi did not file a traverse. On January 21, 2020, the court set a final deadline of February 21,

Ohio Department of Corrections records show that Hersi’s prison term ended on January 11, 2020, and
he was placed under Adult Parole Authority supervision at that time. Offender Search Results (last
visited May 26, 2020). Hersi’s transfer from prison to post-release control does not defeat this court’s
jurisdiction to hear his petition because: (1) parole satisfies the “in custody” requirement of 28 U.S.C.
§ 2254, DePompei v. Ohio Adult Parole Auth., 999 F.2d 138, 140 (6th Cir. 1993); and (2) the “in
custody” requirement need only be met at the time the application is filed, Northrop v. Trippett, 265 F.3d
372,375 n.l (6th Cir. 2001).
2 Dave Marquis was Warden of Richland Correctional Institution, where Hersi was incarcerated, when he
filed his petition. Ed Sheldon is now Warden of Richland Correctional Institution. Richland Correctional
Institution, https://drc.ohio.gov/rici (last visited May 26, 2020). Further, because Hersi is now under the
Adult Parole Authority’s supervision, the Adult Parole Authority is the appropriate respondent.

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 2 of 23. PagelD#:1423

2020, for filing a traverse.3 CM/ECF for N.D. Ohio Case No. tf:18-cv-2437, Order (Jan. 21,
2020). This matter is before me by an automatic order of reference under Local Rule 72.2 for
preparation of a report and recommendation on Hersi’s petition.4
For the reasons stated below, I recommend that Hersi’s Ground One claim be DENIED
as meritless and that his Ground Two claim be DISMISSED as procedurally defaulted. I further
recommend that Hersi’s call for investigation in his “Supplement to Petition for Writ of Habeas
Corpus” (ECF Doc. 3-1) be DISMISSED because it fails to state an issue cognizable on federal
habeas review. Finally, I recommend that Hersi not be granted a certificate of appealability.
I.

State Court Record
A.

State Trial Court, Case No. 16- CR-0126

On March 23, 2016, a Medina County, Ohio grand jury indicted Hersi on: one count of
“operating] a motor vehicle so as willfully to elude or flee a police officer after receiving a
visible or audible signal from a police officer to bring the motor vehicle to a stop, and . . .
causing] substantial risk of physical harm to persons or property,” in violation of Ohio Rev.
Code § 2921.33 l(B)(C)(5)(a)(ii); and one count of “knowingly causing] or attempting] to cause
physical harm to another, to wit: Richard Bell, by means of a deadly weapon,” in violation of
Ohio Rev. Code § 2903.11(A)(2). ECF Doc. 9-1 at 4.
Before trial, Hersi through counsel filed a motion to suppress all evidence seized by
police during his initial traffic stop and obtained thereafter because: (1) police stopped his

3 The court’s order was sent to Hersi’s then-last known address, #693-957, VOA, 1323 Champlain St.,
Toledo, OH 43604. On February 10, 2020, the order was returned as not deliverable. ECF Doc. 23. The
record demonstrates that Hersi was warned that he had the duty to update his address. 1ECF Doc. 5 at 2
(initial order); ECF Doc. 17 (October 2019 notice of address change). Nevertheless, Hersi did not update
his address with the court until May 18, 2020. ECF Doc. 26.
4 Chief Judge Patricia A. Gaughan also issued a differentiated case management initial order for
administrative track cases reflecting the automatic order of reference. ECF Doc. 2.
2

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 3 of 23. PagelD#:1424

vehicle without just cause; (2) the police unreasonably detained, arrested, and questioned him on
the roadside without first advising him of his Miranda rights; (3) police forced and/or coerced
him into making statements; (4) police arrested him without probable cause; and (5) police
stopped his vehicle based on his race. ECF Doc. 9-1 at 17-18, 25. After a hearing, the court
denied Hersi’s motion to suppress on September 13, 2016. ECF Doc. 9-1 at 37-39; see also ECF
Doc. 9-1 at 36 (order scheduling hearing for September 9, 2016).
Hersi’s trial was set for February 27, 2017. ECF Doc. 9-1 at 41. After the State of Ohio
rested, Hersi, through counsel, filed a Criminal Rule 29 motion for acquittal and renewed the
motion after defense rested. ECF Doc. 9-1 at 41. The trial court overruled Hersi’s motions for
acquittal. ECF Doc. 9-1 at 41. On March 3, 2017, the jury returned a verdict finding Hersi
guilty of failing to comply with an order or signal of a police officer and felonious assault. ECF
Doc. 9-1 at 41. On March 20, 2017, the trial court sentenced Hersi to an aggregate prison
sentence of three years. ECF Doc. 9-1 at 50. The court also stated that Hersi’s prison sentence
would be followed by a mandatory three-year term of post-release control for the feloniousassault charge and a discretionary three-year term of post-release control for the failure-tocomply charge. ECF Doc. 9-1 at 50.
B.

Direct Appeal, Case No. 17-CA-0021-M

On April 18, 2017, Hersi, through new counsel, filed a notice of appeal to the Ohio Court
of Appeals. ECF Doc. 9-1 at 53. Hersi’s appellate brief raised two assignments of error:
1. The Trial Court erred as a matter of law in its jury instruction defining the
essential element of “police officer” as to Count I, the charged offense of
failure to comply with order or signal of a police officer in violation of R.C.
2921.331(B) (C)(5)(a)(ii), where the civilin [j/'c] motor carrier enforcement
division safety inspector was not a trained “peace officer” and did not meet
the definition of “police officer” under R.C. 2921.331(F) and R.C.
4511.01 (Z).

3

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 4 of 23. PagelD#:1425

2. The evidence was insufficient to support the jury verdicts of “guilty” as to
both Count I, the charged offense of failure to comply with an order or signal
of police officer, and Count II, the charged offense of felonious assault, and
the Appellant’s convictions as to both counts were against the manifest weight
of evidence.
ECF Doc. 9-1 at 63, 73-91. Hersi specifically argued, in relevant part, that:
The state of Ohio failed to establish beyond a reasonable doubt the essential
elements of the offense of felonious assault, in violation of R.C. 2903.11(A)(2),
that Mr. Hersi did “knowingly cause or attempt to cause physical harm to another,
to wit: Richard Bell, by means of deadly weapon.”
* * *

There was no testimony or evidence presented by the State of Ohio at trial
concerning actual “physical harm to another, to wit: Richard Bell. * * *
Although there was video from both Trooper Melicant and Trooper Mosser’s
vehicles, there was no video at all from Inspector Bell’s lane of travel. Inspector
Bell acknowledged at trial that the wind could blow an empty trailer - such as Mr.
Hersi’s trailer - sideways. Inspector Bell testified that the first incident of alleged
swerving by Mr. Hersi into his left lane of travel was probable [s/c] an accident,
where Mr. Hersi was on the cell phone and looked to the left in Inspector Bell’s
direction. Inspector Bell testified that the second incident of alleged swerving by
Mr. Hersi into his left lane of travel was much the same as the subsequent alleged
swerve by Mr. Hersi into Trooper Melicant’s lane of travel as his tractor trailer
slowed down on 1-71, which was alleged captured on the video from Trooper
Melicant’s vehicle. However, the video from Trooper Melicant’s vehicle did not
show any swerving on the part of Mr. Hersi’s tractor-trailer.
Mr. Hersi denied the accusations, made by Inspector Bell, that Mr. Hersi had
swerved his tractor-trailer from the right lane on 1-76 into Inspector Bell’s left
lane of travel on two separate occasions, when Inspector Bell tried to get his
attention. Mr. Hersi consistently denied that he ever tried to harm Inspector Bell.
ECF Doc. 9-1 at 88-90 (emphasis in original) (citations omitted).
On January 19, 2018, the Ohio Court of Appeals affirmed Hersi’s convictions and
sentences. ECF Doc. 9-1 at 125-38. With regard to Hersi’s sufficiency-of-the-evidence claim,
the Court of Appeals held:
(Tf 28} After reviewing the evidence presented at trial in a light most favorable to
the prosecution, we conclude that the State satisfied its burden of production and
presented sufficient evidence that Mr. Hersi committed the offense of failure to
comply with an order or signal of a police officer, which caused a substantial risk
4

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 5 of 23. PagelD#:1426

of serious physical harm to persons or property, and committed the offense of
felonious assault. Given the substantial length of the pursuit and the fact that it
occurred at highway speeds and included several people and vehicles that could
have been involved in serious or even fatal accidents due to Mr. Hersi’s actions,
we conclude that any rational trier of fact could have found all of the essential
elements of the above offenses proven beyond a reasonable doubt.
State v. Hersi, Ninth Dist. Medina No. 17CA0021-M, 2018-Ohio-123, f 28 (January 19, 2018);
ECF Doc. 9-1 at 136.
C.

Application to Reopen Direct Appeal, Case No. 17-CA-0021-M

On April 11, 2018, Hersi filed a pro se Ohio App. R. 26(B) application to reopen his
direct appeal. ECF Doc. 9-1 at 139-45. Hersi’s application to reopen indicated that he wished to
raise one new claim before the Ohio Court of Appeals:
Mr. Hersi’s due process rights under the Fourteenth Amendment to the United
States Constitution were violated because the indictment failed to specify which
of the two instances of Hersi’s alleged swerving of the semi-truck constituted the
basis for the felonious assault charges[].
ECF Doc. 9-1 at 140. Specifically, Hersi said that the indictment was deficient because it did not
indicate whether his alleged swerving at Bell or his alleged swerving at Melicant constituted the
felonious assault. ECF Doc. 9-1 at 140. Hersi argued that the ambiguity in the indictment, along
with the failure of the prosecution’s closing arguments and court’s jury instructions to correct the
ambiguity, left Hersi without knowing whether he was convicted of feloniously assaulting Bell
or Melicant. ECF Doc. 9-1 at 142-44. Hersi also noted that, because he did not object to the
indictment before trial as required under Ohio Crim. R. 12(C), this assignment of error would be
subject only to plain error review. ECF Doc. 9-1 at 140. Finally, Hersi asserted that counsel’s
representation was constitutionally ineffective for failing to raise this claim because the court
would have likely granted him relief and vacated his felonious assault charge if the claim had
been presented on direct appeal. ECF Doc. 9-1 at 144.

5

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 6 of 23. PagelD#:1427

On May 24, 2018, the Ohio Court of Appeals denied Hersi’s application to reopen his
direct appeal, stating:
Mr. Hersi argues that he received ineffective assistance of appellate counsel
because counsel failed to argue on appeal that the indictment did not specify
whether the felonious assault charge was based on Mr. Hersi swerving his semi­
truck toward Inspector Richard Bell or toward Trooper Phil Melicant. Upon
review of the record, we note that Count II of Mr. Hersi’s indictment states, in
relevant part: “The Jurors of the Grand Jury * * * do find and present that * * *
JIBRIIL A. HERSI unlawfully did knowingly cause or attempt to cause physical
harm to another, to wit: Richard Bell, by means of a deadly weapon, in violation
of [R.C. 2903.11(A)(2)], a felony of the second degree * * * 55
This Court has reviewed Mr. Hersi’s arguments and concludes that appellate
counsel’s failure to raise this additional argument did not cause counsel’s
performance to fall below an objective standard of reasonable representation. Mr.
Hersi has not met his burden of establishing that there is a genuine issue as to
whether he has a colorable claim of ineffective assistance of counsel and has not
shown that: (1) appellate counsel was deficient for failing to raise the issues that
he now presents, or (2) there was a reasonable probability of success had counsel
presented those claims on appeal.
ECF Doc. 9-1 at 149-51 (emphasis, alterations, and omissions in original)
D.

Appeal to the Ohio Supreme Court, Case No. 2018-0830

On June 13, 2018, Hersi pro se filed a notice of appeal to the Ohio Supreme Court. ECF
Doc. 9-1 at 152. Hersi’s memorandum in support of jurisdiction asserted two propositions of
law:
Proposition of Law 1: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States Constitution
when appellate counsel failed to raise: “Hersi’s Due Process rights under the
Fourteenth Amendment to the United States Constitution were violated when the
indictment failed to specify which of the two instances of Hersi’s alleged
swerving constituted the basis for the felonious assault charge.”
Proposition of Law 2: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States Constitution
when appellate counsel failed to raise: “Hersi’s felonious assault conviction was
obtained in violation of the Due Process Clause of the Fourteenth Amendment to
the United States Constitution because the State of Ohio failed to produce

6

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 7 of 23. PagelD#:1428

sufficient evidence that Hersi ‘caused or attempted to cause serious physical
harm’ to Trooper Melicant or Officer Bell.”
ECF Doc. 9-1 at 165, 168-81. The state did not file an opposing brief. On September 26, 2018
the Ohio Supreme Court declined to accept jurisdiction over Hersi’s appeal. ECF Doc. 9-1 at
181. Hersi did not pursue a United States Supreme Court appeal.
II.

Federal Habeas Petition
On October 22, 2018, Hersi filed his petition for writ of habeas corpus. ECF Doc. 1.

Hersi’s petition raises two grounds for relief:
Ground One: Hersi was deprived effective assistance of appellate counsel in
violation of the Sixth Amendment to the United States Constitution when
appellate counsel failed to raise “Hersi’s Due Process rights under the Fourteenth
Amendment to the United States Constitution [were] violated when the indictment
failed to specify [which] of the two instances of Hersi’s alleged swerving
constituted the basis for the felonious assault charge.
Ground Two: Hersi was [deprived of] effective assistance of appellate counsel
... in violation of the Sixth Amendment to the United States Constitution when
appellate counsel failed to raise: Hersi’s felonious assault conviction was obtained
in violation of the Due Process clause of the Fourteenth Amendment to the United
States Constitution because the State of Ohio failed to produce sufficient evidence
that Hersi ‘caused or attempted to cause serious physical harm’ to Trooper
Melicant or Officer Bell.”
ECF Doc. 1 at 4-5. On January 10, 2019, Hersi filed a “Supplement to Petition for Writ of
Habeas Corpus,” which appears to ask the court to investigate confusion that developed
regarding the scheduling of a hearing to address his felonious assault charge on December 2,
2016, and March 2 and 3, 2017. ECF Doc. 3-1 at 1-3.
III.

Applicable Legal Standards
A.

AEDPA Standard for Merits Review

A state prisoner’s claims for habeas corpus relief are governed by the Antiterrorism and
Effective Death Penalty Act of 1996, Pub. L. 104-132, 110 Stat. 1214 (“AEDPA”), which

7

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 8 of 23. PagelD#:1429

established a standard of review that gives significant deference to the decisions made by the
state courts on the federal constitutional issues raised in a habeas corpus petition. See Penry v.
Johnson, 532 U.S. 782, 791 (2001); Wilson v. Parker, 515 F.3d 682, 691 (6th Cir. 2008).
AEDPA imposes a “highly deferential standard for evaluating state-court rulings,” Lindh v.
Murphy, 521 U.S. 320, 333 n. 7 (1997), and “demands that state-court decisions be given the
benefit of the doubt,” Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam).
When the claim presented in a habeas corpus petition has been presented to and decided
on the merits by the state courts, a federal habeas court may not grant relief unless the state
court’s decision was contrary to or an unreasonable application of clearly established federal law
or based on an unreasonable determination of the facts in light of the evidence that was
presented. 28 U.S.C. § 2254(d) provides:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
In applying this statute, the Supreme Court has held that “[t]he focus ... is on whether
the state court’s application of clearly established federal law is objectively unreasonable
.. . an unreasonable application is different from an incorrect one.” Bell v. Cone, 535
U.S. 685, 694 (2002). To obtain habeas corpus relief, a petitioner must show the state
court’s decision was “so lacking in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fair minded disagreement.
8

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 9 of 23. PagelD#:1430

Bobby v. Dixon, 565 U.S. 23, 24, (2011) (quoting Harrington v. Richter, 562 U.S. 86
(2011)). This standard is “difficult to meet” because “habeas corpus is a ‘guard against
extreme malfunctions in the state criminal justice systems,’ not a substitute for ordinary
error correction through appeal.” Harrington, 562 U.S. at 102-103 (quoting Jackson v.
Virginia, 443 U.S. 307, 332, n. 50, (1979) (Stevens, J., concurring in judgment)). In
short, “[a] state court’s determination that a claim lacks merit precludes federal habeas
relief so long as ‘fairminded jurists could disagree’ on the correctness of the state court’s
decision.” Id. (quoting Yarborough v. Alvarado, 541 U.S. 652, 664, (2004). “The
question under AEDPA is not whether a federal court believes the state court’s
determination was incorrect but whether that determination was unreasonable - a
substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007).
B.

Procedural Default

“Before [a federal court may] reach the merits of a habeas petition,... [it must] review
whether the petitioner has satisfied the [two] procedural requirements for litigating his federal
claim in state court.” Gerth v. Warden, Allen Oakwood Corr. Inst., 938 F.3d 821, 826 (6th Cir.
2019) (citing Bickham v. Winn, 888 F.3d 248, 250-51 (6th Cir. 2018), and Seymour v. Walker,
224 F.3d 542, 550 (6th Cir. 2000)). “First, the petitioner must [have] exhausted] all available
opportunities to pursue his claim in state court before he may litigate that claim in federal court.”
Id. at 826-827 (noting that this requirement, rooted in the principles of comity and federalism.
seeks to “avoid the unseemly result of a federal court upsetting a state court conviction without
first according the state courts an opportunity to correct a constitutional violation” (internal
quotations and alterations omitted); 28 U.S.C. § 2254(b)(1)(A). Here, the petitioner must have
given the state courts “one full opportunity to resolve any constitutional issues by invoking one

9

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 10 of 23. PagelD #: 1431

complete round of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526
U.S. 838, 845 (1999); Manning v. Alexander, 912 F.2d 878, 881 (6th Cir. 1990). Nevertheless,
petitioners are only required to have pursued available remedies and are not required to pursue
clearlyfutile state remedies. See Engle v. Isaac, 456 U.S. 107, 125 n.28 (1982); Wiley v.
Sowders, 647 F.2d 642, 647 (6th Cir. 1981); see also Woodford v. Ngo, 548 U.S. 81, 92-93
(2006) (“[S]tate-court remedies are . . . ‘exhausted’ when they are no longer available, regardless
of the reason for their unavailability.”).
“Second, and relatedly, the procedural default doctrine bars [federal habeas] review if the
petitioner has not followed the state’s procedural requirements for presenting his claim in state
court.” Gerth, 938 F.3d at 827. Here, federal habeas review is barred when the petitioner failed
to: (1) comply with a state procedural rule that prevented the state courts from reaching the
merits of the petitioner’s claim; or (2) fairly present the claim before the state courts while state
remedies were still available. Wainwright v. Sykes, 433 U.S. 72, 80, 84-87 (1977); Engle, 456
U.S. at 125 n.28 (1982); Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006). To determine
whether an Ohio procedural rule bars habeas review, courts in the Sixth Circuit apply a four-part
test: (1) did the petitioner fail to comply with an Ohio procedural rule?; (2) do Ohio courts
regularly enforce that rule?; (3) is the rule an adequate and independent state ground for denying
review of a constitutional claim?; and (4) can the petitioner show cause and prejudice excusing
the default? Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986); Williams v. Coyle, 260 F.3d
684, 693; see also Gerth, 938 F.3d at 829-830 (holding that Ohio’s res judicata doctrine is an
adequate and independent state procedural ground that Ohio courts regularly apply).
When the respondent asserts that the petitioner failed to “fairly present” his claim in state
court, the court looks to: (1) whether the petitioner failed to assert both the legal and factual basis

10

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 11 of 23. PagelD#:1432

for his claim through the state’s ordinary review process; and (2) whether state law no longer
allows the petitioner to raise his claim at the time he filed his federal habeas petition. Williams,
460 F.3d at 806 (citing O’Sullivan, 526 U.S. at 848, and McMeans v. Brigano, 228 F.3d 674, 681
(6th Cir. 2000)). Most importantly, the ‘“petitioner must present his claim to the state courts as a
federal constitutional issue - not merely as an issue arising under state law.’” Id. (quoting
Koontz v. Glossa, 731 F.2d 365, 368 (6th Cir. 1984)). “Issues not presented at each and every
level [of the state courts] cannot be considered in a federal habeas corpus petition.” Baston v.
Bagley, 282 F. Supp. 2d 655, 661 (N.D. Ohio 2003) (citing Buell v. Mitchell, 274 F.3d 337 (6th
Cir. 2001), Scott v. Mitchell, 209 F.3d 854, 865-68 (6th Cir. 2000), and Leroy v. Marshall, 757
F.2d 94 (6th Cir. 1985)).
Procedural default may be excused on two bases. First, the petitioner’s procedural
default may be excused if he shows cause and prejudice, i.e. that: (1) an external factor to the
defense, which cannot be fairly attributed to him, prevented him from complying with the state
procedural rule; and (2) actual prejudice resulted from the alleged constitutional violation.
Coleman v. Thompson, 501 U.S. 722, 750 (1991). In assessing prejudice, the court assumes that
the petitioner has stated a meritorious constitutional claim and proceeds to discern whether a
different verdict would have resulted absent the assumed constitutional error. Moore v. Carlton,
1A F.3d 689, 691-92 (6th Cir. 1996); Mason v. Mitchell, 320 F.3d 604, 629 (6th Cir. 2003); see
also United States v. Frady, 456 U.S. 152, 170-72 (1982). Second, a procedural default may be
excused if denying review of the petitioner’s claims would result in a “fundamental miscarriage
of justice.” Coleman, 501 U.S. at 750. “A fundamental miscarriage of justice results from the
conviction of one who is ‘actually innocent.’” Lundgren v. Mitchell, 440 F.3d 754, 764 (6th Cir.
2006) (citing Murray v. Carrier, All U.S. 478, 496 (1986)). Actual innocence means “factual

11

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 12 of 23. PagelD #: 1433

innocence, not mere legal insufficiency,” Bousleyv. United States, 523 U.S. 614, 623 (1998),
and must be supported with “new reliable evidence ... that was not presented at trial,” Schlup v.
Delo, 513 U.S. 298, 324(1995).
IV.

Facts
Analysis of Hersi’s petition begins with the facts recited in the Ohio Court of Appeals’

opinion on direct appeal. These factual findings are presumed correct unless Hersi rebuts them
with clear and convincing evidence. 28 U.S.C. § 2254(c)(1); Wiggins, 539 U.S> at 528-29; Burt,
571 U.S. at 18. The Ohio Court of Appeals found the following facts:
(1117} ... While parked off of Interstate 76 and talking with Troopers Phillip
Melicant and Matt Mossor on March 6, 2016, Inspector Bell testified that he used
uniform statistics and randomly selected a semi-truck that passed by the parked
officers. He activated his siren and overhead lights and attempted to pull the
semi-truck over before it reached the upcoming weigh station, so he could then
direct the semi-truck into the weigh station and perform a safety inspection. Mr.
Hersi was the driver of the randomly-selected semi-truck. Inspector Bell testified
that when Mr. Hersi did not pull over, he pulled along the side of Mr. Hersi’s
semi-truck, varied his siren sounds, and attempted to get Mr. Hersi’s attention by
motioning to him to pull his semi-truck over to the side of the road. Mr. Hersi
was on the phone, but looked down at Inspector Bell, made eye contact with him,
and then swerved his semi-truck into Inspector Bell’s lane of travel, causing the
inspector to apply his brakes. When questioned on cross-examination as to
whether the swerve could have been a mistake, Inspector Bell testified that Mr.
Hersi “didn’t mistakenly turn his steering wheel.” Mr. Hersi then swerved his
semi-truck back into his original lane of travel.
(T118} Inspector Bell pulled along the side of Mr. Hersi’s semi-truck a second
time and continued to motion to Mr. Hersi to pull over. Mr. Hersi was still on the
phone and said something to Inspector Bell while making eye contact with him
and shaking his head to indicate “no.” Inspector Bell testified that Mr. Hersi's
semi-truck then swerved into the inspector’s lane once again, even more than the
first time, causing the inspector to “slam” on his brakes hard and swerve over the
yellow line on the road and onto the “rumble sticks.” Inspector Bell announced
over the radio that the semi-truck driver failed to pull over and also tried to run
him off the road.
{*[} 19} After traveling approximately six miles on Interstate 76 without stopping
for Inspector Bell, Mr. Hersi turned onto Interstate 71. Trooper Melicant passed
Inspector Bell around this time and then took the lead in the pursuit for another
12

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 13 of 23. PagelD #: 1434

two miles. Trooper Mossor also testified that the entire incident took place over a
span of approximately seven-to-eight miles. Trooper Melicant testified that he
pulled up along the side of Mr. Hersi’s semi-truck and motioned to him to pull
over. He testified, “At that time, I could clearly see up in the cab that Mr. Hersi
was shaking his fist at me and yelling, and all of a sudden, that’s when he swerved
at me * * *.” when asked if he felt the swerve was done on purpose, Trooper
Melicant testified, “He absolutely did it on purpose.” The trooper testified that
had he not made an evasive action, Mr. Hersi’s semi-truck would have hit him.
Inspector Bell also testified that he observed Mr. Hersi’s semi-truck swerve
toward Trooper Melicant. The trooper testified that Mr. Hersi’s semitruck “rode
the berm” for about one more mile before eventually stopping.
{f 20} Mr. Hersi’s written statement to the State Highway Patrol was also entered
into evidence at trial. In his written statement, Mr. Hersi states that he first saw
Inspector Bell at the weigh station and did not stop for him because he felt it was
discrimination. He admits that he saw the overhead lights, but states that he was
“set up” and it was unfair if they were looking for stolen vehicles or “highway
[terrorism].” He further admits that he did not acknowledge the officers by
stopping right away. He states that after he saw the overhead lights, he traveled
less than three miles down the road. He admits that he was on the phone with his
family telling them that three officers were parked, and one followed him after
passing three other trucks. He also states that he has been stopped for safety
inspections many times in the past.
* * *

(If 24} . . . Inspector Bell did testify at trial that the wind or weather could
possibly move a semi-truck’s empty trailer, but he testified that Mr. Hersi
swerved toward him on two different occasions, causing him to apply his brakes
to avoid an accident both times. The second swerve caused Inspector Bell to
swerve over the yellow line and onto the “rumble sticks” on the side of the road.
Inspector Bell testified that if he had not applied his brakes and swerved away, the
two vehicles would have made contact and crashed. He testified that all of Mr.
Hersi’s semi-truck, except for the right-side wheels, came into the inspector’s lane
before Mr. Hersi swerved back into his original lane. Trooper Melicant also
testified that had he not made his own evasive action when Mr. Hersi later
swerved toward him,' Mr. Hersi’s semi-truck would have hit him.
{Tf 25} In Trooper Melicant's dash cam video, he can be heard saying, “Pull over,
pull over” while next to Mr. Hersi's semi-truck. The trooper’s vehicle then veers
slightly to the left and he can be heard saying, “Medina, he’s trying to cut me off
as well.” Trooper Mossor joined the pursuit behind both Trooper Melicant and
Inspector Bell, and Trooper Mossor’s dash cam video was also entered into
evidence. Although not entirely conclusive and unfortunately recorded from a
substantial distance by a vehicle that is attempting to catch up to the pursuit, Mr.
Hersi’s semi-truck appears in the video to slightly veer toward Trooper Melicant’s
13

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 14 of 23. PagelD #: 1435

vehicle before abruptly swerving away from the trooper. Trooper Melicant veers
slightly to the left and can then be heard announcing over the radio that Mr. Hersi
is trying to cut him off as well.
* * *

{127} At trial, the State presented evidence, if believed, that established Mr.
Hersi knowingly attempted to cause physical harm to Inspector Bell by means of
a deadly weapon. Once again, Inspector Bell testified that Mr. Hersi made eye
contact with him and swerved his semi-truck into the inspector's lane of travel
twice, and the second time caused the inspector to swerve his own vehicle over
the yellow line and onto the “rumble sticks” on the side of the road. He testified
that Mr. Hersi “didn’t mistakenly turn his steering wheel” and had the inspector
not swerved away, the vehicles would have made contact and crashed. The
second time, Mr. Hersi again made eye contact with Inspector Bell, then said
something to him and shook his head to indicate “no.” Mr. Hersi swerved toward
Inspector Bell once again, causing the inspector to “slam” on his brakes and drive
over the yellow line and onto the “rumble sticks.”
State v. Hersi, Ninth Dist. Medina No. 17CA0021-M, 2018-Ohio-123,

17-20, 24-25, 27

(January 19, 2018);ECF Doc. 9-1 at 131-37.
V.

Analysis
A.

Grounds One

In Ground One, Hersi argues that appellate counsel was constitutionally ineffective
because he failed to argue on direct appeal that the indictment was deficient for failing to specify
whether Hersi’s alleged swerving toward Inspector Bell or his swerving toward Trooper
Melicant formed the basis for his felonious assault charge. ECF Doc. 1 at 4. Warden Marquis
responds that Hersi’s ground one claim is meritless because he has not shown that the Ohio
Court of Appeals unreasonably concluded that appellate counsel’s performance was not
deficient. ECF Doc. 9 at 18, 26.5

5 Curiously, the majority of the section purportedly responding to Hersi’s Ground One claim in Warden
Marquis’s brief argues that Hersi did not show that the Ohio Court of Appeals unreasonably concluded
that sufficient evidence supported both his failure-to-comply and felonious-assault convictions. See ECF
Doc. 9 at 19-26. Warden Marquis does not explain why the sufficiency of evidence to establish the
essential elements of both charges in the indictment is relevant to Hersi’s claim that the allegations as

14

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 15 of 23. PagelD#:1436

As a preliminary matter, Hersi did not procedurally default his Ground One claim. Hersi
properly presented the same ineffective-assistance-of-appellate-counsel claim - alleging that
appellate counsel unreasonably failed to argue on direct appeal that the allegations in the
indictment were insufficient - for the first time in his Ohio App. R. 26(B) application to reopen.
See State v. Davis, 119 Ohio St. 3d 422, 427 (2008) (“App. R. 26(B) creates a special procedure
for a thorough determination of a defendant’s allegations of ineffective assistance of counsel.
The rule creates a separate forum where persons with allegedly deficient appellate counsel can
vindicate their rights.”); ECF Doc. 9-1 at 139-45. Further, Hersi gave the Ohio Supreme Court
an opportunity to review his claim when he presented it in his timely collateral appeal. ECF
Doc. 9-1 at 165, 168-81. Thus, by properly presenting his Ground One claim through one full
round of review before the Ohio courts, Hersi avoided procedural defaulting on his Ground One
claim. Gerth, 938 F.3d at 826-27; O’Sullivan, 526 U.S. at 845; Manning, 912 F.2d at 881;
Wainwright, 433 U.S. at 80, 84-87; Engle, 456 U.S. at 125 n.28; Williams, 460 F.3d at 806.
Hersi’s Ground One claim is, however, meritless. The right to effective assistance of
counsel extends to the first appeal as of right. Evitts v. Lucey, 469 U.S. 387, 392 (1985). In
Strickland v. Washington, the U.S. Supreme Court established that a petitioner claiming
ineffective assistance of counsel must show that: (1) counsel’s representation “fell below an
objective standard of reasonableness,” such that he was not performing as counsel guaranteed
under the Sixth Amendment; and (2) counsel’s deficient performance prejudiced the defendant.
466 U.S. 668, 688 (1984). This standard applies to claims that appellate counsel was
constitutionally ineffective. Smith v. Robbins, 528 U.S. 259, 285 (2000); Roe v. Flores-Ortega,
528 U.S. 470, All (2000). To act as counsel guaranteed by the Sixth Amendment, appellate

stated in the indictment were unclear as to whether he was alleged to have feloniously assaulted Bell or
Melicant. See ECF Doc. 9 at 19-26.
15

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 16 of 23. PagelD#:1437

counsel need only exercise reasonable professional judgment, and is not obligated to raise every
“colorable” claim on appeal. Jones, 463 U.S. at 754; see also Strickland, 466 U.S. at 690
(“[Cjounsel is strongly presumed to have rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment.”). Further, counsel cannot be
ineffective for failing to raise a meritless claim. Shaneberger, 615 F.3d at 452; see also Smith v.
Murray, All U.S. 527, 536 (1986) (indicating that the task of winnowing out less persuasive
arguments on appeal is the hallmark of an effective appellate advocate). For prejudice, the
petitioner must show that there was a “reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Strickland, 466
U.S. at 694.
Because the Ohio Court of Appeals reviewed Hersi’s Ground One ineffective-assistanceof-appellate-counsel claim on the merits, this court reviews the claim under the highly deferential
AEDPA standard. 28 U.S.C. § 2254(d); see also Harrington, 526 U.S. at 88, 102-03; Schriro,
550 U.S. at 473. Hersi cannot show that the Ohio Court of Appeals’ conclusion that appellate
counsel’s representation was not constitutionally ineffective was: (1) contrary to or based on an
unreasonable application of clearly established federal law; or (2) based on an unreasonable
determination of the facts on the evidence presented. 28 U.S.C. § 2254(d). Here, the Ohio Court
of Appeals expressly applied the correct standard for ineffective-assistance-of-counsel claims
under Strickland. ECF Doc. 9-1 at 149-50. Further, after reviewing the record, the Ohio Court
of Appeals reasonably concluded that counsel’s performance was not deficient for failing to
argue that the indictment failed to indicate whether the felonious assault charge was based on
Hersi’s swerving toward Bell or his swerving toward Melicant because the indictment did
specify that Hersi was charged with feloniously assaulting Bell. Strickland, 466 U.S. at 688;

16

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 17 of 23. PagelD#:1438

Shaneberger, 615 F.3d at 452; ECF Doc. 9-1 at 150; see also ECF Doc. 9-1 at 4 (“JIBRIIL A.
HERSI unlawfully did knowingly cause or attempt to cause physical harm to another, to wit:
Richard Bell, by means of a deadly weapon” (emphasis added)).
Because there is nothing to suggest that the Ohio Court of Appeals’ disposition of Hersi’s
Ground One claim was either incorrect or unreasonable, I recommend that the claim be denied
for lack of merit.
B.

Ground Two

In his Ground Two claim, Hersi argues that his appellate counsel was ineffective for
failing to argue on direct appeal that the state failed to present sufficient evidence to establish the
essential elements of felonious assault. ECF Doc. 1 at 5. Warden Marquis responds that Hersi’s
Ground Two claim is procedurally defaulted because he failed to raise it in his Ohio App. R.
26(B) application to reopen his direct appeal. ECF Doc. 9 at 27-28. Further, Warden Marquis
argues that Hersi cannot overcome his procedural default because he has not shown cause and
prejudice for the default, or that a manifest injustice would occur if the court did not entertain his
claim. ECF Doc. 9 at 28-29. Finally, Warden Marquis asserts that Hersi’s Ground Two claim is
meritless because appellate counsel did raise the claim on direct appeal and the Ohio Court of
Appeals reasonably denied the claim on the merits. ECF Doc. 9 at 29-30.
1.

Procedural Default

Warden Marquis is correct that Hersi procedurally defaulted his Ground Two claim that
appellate counsel’s representation was constitutionally ineffective when he failed to argue that
the state failed to present sufficient evidence to support his felonious assault conviction. Here,

17

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 18 of 23. PagelD #: 1439

Hersi did not raise the claim in his direct appeal to the Ohio Supreme Court6 or in his App. R.
26(B) application to reopen his appeal before the Ohio Court of Appeals. Davis, 119 Ohio St. 3d
at 425-27 (indicating that an ineffective-assistance-of-appellate-counsel claim may be raised for
the first time in an Ohio App. R. 26(B) application or on direct appeal to the Ohio Supreme
Court); ECF Doc. 9-1 at 139-45. Although Hersi raised the claim in his appeal to the Ohio
Supreme Court from the denial of his Ohio App. R. 26(B) application, Ohio law precluded him
from raising that claim because he had not first presented it to the Ohio Court of Appeals in his
application to reopen. See State v. Phillips, 27 Ohio St. 2d 294, 302 (1971) (“It is an established
rule of long standing in this state that a constitutional question . . . can not be raised in the
Supreme Court unless it was presented and urged in the courts below.” (quoting State, ex rel.
King, v. Shannon, 170 Ohio St. 393, 394 (I960))); ECF Doc. 9-1 at 164-81.
Further, Hersi has not argued that: (1) cause and prejudice excuse his procedural default;
or (2) that a manifest injustice would result if the court declined to entertain his Ground Two
claim. Coleman, 501 U.S. at 750. And because Hersi represented himself in filing his Ohio
App. R. 26(B) application to reopen, he cannot show cause by pointing to an external factor that
prevented him from raising the claim. Id. \ ECF Doc. 9-1 at 139-45. Moreover, Hersi has not
produced any new reliable evidence not presented at trial indicating that he was factually
innocent. Coleman, 501 U.S. at 750; Lundgren, 440 F.3d at 764; Bousley, 523 U.S. at 623;
Schlup, 513 U.S. at 324. Thus, Hersi cannot escape his procedural default of his Ground Two
claim.

6 Hersi did not file a direct appeal to the Ohio Supreme Court, and the time do so expired on March 4,
2018 -45 days after the Ohio Court of Appeals issued its January 19, 2018 order affirming Hersi’ s
convictions and sentences. See Ohio S. Ct. Prac. R. 7.01(A)(1).
18

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 19 of 23. PagelD #: 1440

Accordingly, because Hersi cannot overcome the procedural default of his Ground Two
claim, I recommend that the claim be dismissed as procedurally defaulted.
2.

Merits

Even if not procedurally defaulted, Hersi’s Ground Two claim would also fail on the
merits. First, Hersi’s claim does not really make sense. He alleges his appellate counsel was
ineffective for failing to raise a claim that there was insufficient evidence to support a conviction
for felonious assault because there was not enough evidence that Hersi caused or attempted to
cause serious physical harm to Officer Bell or Trooper Melicant. But Hersi’s second assignment
of error on direct appeal stated, in part: “The evidence was insufficient to support the jury
verdicts of “guilty” as to . . . Count II, the charged offense of felonious assault.” By challenging
the sufficiency of the evidence to support the felonious assault conviction, Hersi’s direct appeal
counsel necessarily challenged the state’s proof of every element of that charge, including
whether there was evidence that Hersi caused or attempted to cause serious physical harm. So, it
makes no sense to now allege that appellate counsel’s representation was ineffective when the
very claim Hersi argues should have been raised was raised.
Second, Hersi cannot show that the Ohio Court of Appeals could not have reasonably
concluded that appellate counsel was constitutionally ineffective for not claiming that the state
failed to present sufficient evidence for a reasonable juror to conclude that he was guilty of
felonious assault. 28 U.S.C. § 2254(d); Harrington, 562 U.S. at 88, 102-03; Bell, 535 U.S. at
694; Bobby, 565 U.S. at 24. In fact, no reasonable court could have reached the conclusion that
appellate counsel’s representation was deficient for failing to present a sufficiency-of-theevidence claim because appellate counsel did present that claim on direct appeal. See ECF Doc.
9-1 at 63, 73-91. Thus, Hersi cannot show that the Ohio Court of Appeals could not have

19

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 20 of 23. PagelD #: 1441

reasonably concluded that appellate counsel’s representation was deficient for failing to present a
sufficiency-of-the-evidence challenge to his felonious assault conviction. 28 U.S.C. § 2254(d);
Harrington, 562 U.S. at 88, 102-03; Bell, 535 U.S. at 694; Bobby, 565 U.S. at 24.
Therefore, even if the court were to review Hersi’s Ground Three claim on the merits, it
would still fail for lack of merit.
C.

Call for Investigation

Finally, Hersi’s call for an investigation in his “Supplement to Petition for Writ of
Habeas Corpus” fails to present any cognizable federal constitutional issue for habeas review.7
See generally ECF Doc. 3-1. Simply put, Hersi’s call for investigation does not invoke any
constitutional standards or any decisions by the U.S. Supreme Court. See ECF Doc. 3-1; see also
28 U.S.C. § 2254(d). Thus, Hersi’s supplemental filing does not raise any claim cognizable on
federal habeas review. See Estelle v. McGuire, 502 U.S. 62, 68 (1991) (“It is not the province of
a federal habeas court to reexamine state-court determinations on state-law questions. In
conducting habeas review, a federal court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United States.”).
Even if the court were to liberally construe Hersi’s supplemental filing to raise a
cognizable federal constitutional claim - whatever that claim might be - the claim would be
procedurally defaulted because Hersi did not raise any claims regarding the trial court’s hearing

7 Hersi’s supplement is very difficult to follow. It does not appear he actually is submitting it to challenge
his conviction; instead, he seems to have attempted to raise questions concerning pretrial proceedings. As
such, even if this claim had been raised in state court and fairly presented as a federal law violation - and
it does not appear that it was - we would lack subject matter jurisdiction to consider the claim. Title 28
U.S.C. § 2254(a) indicates the limited jurisdiction of federal courts in habeas cases: “The Supreme Court,
a Justice thereof, a circuit judge, or a district court shall entertain an application for a writ of habeas
corpus in behalf of a person in custody pursuant to the judgment of a State court only on the ground that
he is in custody in violation of the Constitution or laws or treaties of the United States.” (Emphasis
added). Plainly, Hersi is not in custody as a result of any pretrial order of the trial court.
20

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 21 of 23. PagelD#:1442

schedule on direct appeal to the Ohio Court of Appeals or the Ohio Supreme Court or in any
collateral proceedings. See generally ECF Doc. 9-1; see also Franklin v. Rose, 765 F.2d 82, 85
(6th Cir. 1985) (“The allegations of a pro se habeas petition, though vague and conclusory, are
entitled to a liberal construction,” and “[t]he appropriate liberal construction requires active
interpretation in some cases to construe a pro se petition to encompass any allegation stating
federal relief’ (internal quotation marks and citations omitted)). And Hersi has not presented
any cause-and-prejudice argument or pointed to any new evidence of actual innocence that
would overcome his procedural default. Thus, any cognizable claims that could be construed
from Hersi’s supplemental filing would be due to be dismissed as procedurally defaulted.
Further, even if the court were to construe Hersi’s supplemental filing as a motion for
leave to conduct discovery, it would still fail. Here, it is worth noting that Hersi filed a motion
expressly seeking to conduct discovery to investigate the trial court proceedings on December 2,
2016 and March 2 and 3, 2017. See ECF Doc. 10 at 4; ECF Doc. 11 at 1-3; ECF Doc. 14. And
the court denied that motion because Hersi had not shown good cause for allowing discovery or
that the subjects he wished to discover were material to his habeas petition. See ECF Doc. 15 at
6-7 (“Hersi has not set forth any specific factual allegations indicating that a more-fully
developed exploration of trial counsel’s motion for continuance, request for dismissal of the
felonious assault charge, or request for a bond hearing would illustrate that he is entitled to
habeas relief.” (citing Bracy v. Gramley, 520 U.S. 890, 908-09 (1997); and Bowling v. Parker,
344 F.3d 487, 512 (6th Cir. 2003)). And Hersi’s supplemental filing (ECF Doc. 3-1), if
construed as a motion to conduct discovery, would fail for the same reasons.
Accordingly, I recommend that the court DISMISS the assertions in Hersi’s “Supplement
to Petition for Writ of Habeas Corpus” for failing to state a cognizable claim.

21

Case: l:18-cv-02437-SO Doc#: 27 Filed: 05/26/20 22 of 23. PagelD#:1443

VI.

Certificate of Appealability
A.

Legal Standard

A habeas petitioner may not appeal the denial of his application for a writ of habeas
corpus unless a judge issues a certificate of appealability and specifies the issues that can be
raised on appeal. 28 U.S.C. § 2253(c). “A certificate of appealability may issue . . . only if the
applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). The Supreme Court has interpreted this standard to mean that the “‘petitioner must
demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong.’” Tennard v. Dretke, 542 U.S. 274, 282 (2004) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)). The granting of a certificate of appealability does not
require a showing that the appeal would succeed on any claim. Miller-El v. Cockrell, 537 U.S.
322, 337 (2003).

B.

Analysis

When a petition is to be dismissed on a procedural basis, the inquiry under § 2253(c) is
two-fold. In such cases, a certificate of appealability “should issue when the prisoner shows, at
least, that jurists of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack, 529 U.S. at 485. As the Supreme
Court explained, “[wjhere a plain procedural bar is present and the district court is correct to
invoke it to dispose of the case, a reasonable jurist could not conclude either that the district
court erred in dismissing the petition or that the petitioner should be allowed to proceed further.
In such a circumstance, no appeal would be warranted.” Id. at 486. If the Court accepts my
recommendations, Hersi will not be able to show that the Court’s rulings on his procedurally

22

Case: l:18-cv-02437-SO Doc #: 27 Filed: 05/26/20 23 of 23. PagelD #: 1444

defaulted, meritless, and non-cognizable claims are debatable. Thus, I recommend that a
certificate of appealability not be issued.
VII.

Recommendations
I recommend that Hersi’s Ground One claim be DENIED as meritless and that his

Ground Two claim be DISMISSED as procedurally defaulted. I further recommend that Hersi’s
call for investigation in his “Supplement to Petition for Writ of Habeas Corpus” (ECF Doc. 3-1)
be DISMISSED because it fails to state an issue cognizable on federal habeas review. I further
recommend that Hersi’s petition for writ of habeas corpus be DENIED and that he not be granted
a certificate of appealability.
Dated: May 26, 2020
Thomas MyF’arker
United States Magistrate Judge

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of Courts
within fourteen (14) days after being served with a copy of this document. Failure to file
objections within the specified time may waive the right to appeal the District Court’s order. See
U.S. v. Walters, 638 F.2d 947 (6th Cir. 1981). See also Thomas v. Arn, 474 U.S. 140 (1985),
reh’g denied, 474 U.S. 1111 (1986).

23

